                                                                        MELAND SECU
                                                Office of Inspector General
                                            Atlanta Field Office - Audit Division
                                                 3003 Chamblee Tucker Rd
                                                     Atlanta, GA 30341


                                                         November 18,2003


MEMORANDU

TO:                Patricia Acuri.
                   Acting Regional Director, FEMA Region I
                                                         II

                   Field Office ~ i r e c t b r

SUBJECT:           West Virginia Department of Transportation
                   FEMA Disaster No. 1229-DR-W
                   Audit Report DA-05-04


The Office of Inspector General (OIG) audited public assistance funds awarded to the
West Virginia Department of Transportation. The objective of the audit was to determine
whether the Department accounted for and expended FEMA funds according to federal
regulations and FEMA guidelines.

The Department received an award of $5.2 million from the West Virginia Department of
Emergency Services, a FEMA grantee, for debris removal, emergency protective
measures, and repair of roads and bridges damaged as a result of a flood in July 1998.
The award provided 75 percent FEMA funding for 13 large projects and 490 small
projects'. Audit work focused on the $1,325,570 claimed under the 13 large projects (see
Exhibit).

The audit covered the period July 1998 to May 2002. During this period, the Department
received $994,178 of FEMA funds under the 13 large projects.

The OIG performed the audit under the authority of the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. The audit
included tests of the Department's accounting records, a judgmental sample of,
expenditures, and other auditing procedures considered necessary under the
circumstances.

Notice: This report remains the property of the DHS Office of Inspector General (DHS-OIG) at all times and, as such, is not
to be publicly disclosed without the express permission of the DHS-OIG. Requests for copies of this report should be
immediately forwarded to the DHS Office of Counsel to the Inspector General to ensure strict compliance with all applicable
disclosure laws.

I
According to FEMA regulations, a large project has approved estimated completion costs of $47,100 or
more and a small project has approved estimated completion costs of less than $47,100.
                                                                                                  Exhibit

                          West Virginia Department of Transportation
                              FEMA Disaster No. 1229-DR-WV
                          Schedule of Claimed and Questioned Costs
                                        Lawe Proiects

        Project                    Amount                     Amount            Amount
        Number                     Awarded                    Claimed           Questioned

                                                                                 $ 216
                                                                                     140
                                                                                    200
                                                                                       0
                                                                                       0
                                                                                   1,289
                                                                                       0
                                                                                      90
                                                                                     403
                                                                                     366
                                                                                      69
                                                                                     598
                                                                                     116
                                                                                  $3.487




I
 This project was approved as a large project because total estimated costs at the time of project approval
exceeded $47,100. However, upon project completion, actual costs were determined to be less than
$47,100.
                                 RESULTS OF AUDIT 


The Department generally accounted for and expended FEMA funds according to federal
regulations and FEMA guidelines. However, the Department's claim included
questioned costs of $3,487 (FEMA share $2,615) resulting from excessive administrative
costs and a mathematical error.

A. Excess Administrative Costs. Federal regulation 44 CFW 206.228 states that indirect
   costs of a subgrantee are not separately eligible because the statutory administrative
   allowance covers the necessary costs of requesting, obtaining, and administering
   FEMA awards. However, the Department's claim under the various FEMA projects
   included $2,207 of administrative costs for processing payroll and other general
   operation support activities for individuals engaged in performing project work. We
   question these charges because they are indirect costs and, as such, are covered by the
   administrative allowance.

B. Mathematical Error. The Department received an overpayment of $1,280 under
   Project 41473 due to a math error made by the FEMA inspector during final
   inspection of the project. The error resulted in the Department being reimbursed for
   costs of $79,759 when actual costs totaled $78,479, or $1,280 less. Accordingly, we
   question the $1,280 overpayment.


                                 RECOMMENDATION

The OIG recommends that the Regional Director, in coordination with the grantee,
disallow the $3,487 of questioned costs.


          DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

The audit results were discussed with Department officials on October 2,2003, and with
grantee and FEMA officials on October 1,2003. Department officials concurred with the
findings.

Please advise the Atlanta Field Office - Audit Division by January 18,2003, of the
actions taken to implement the OIG recommendation. Should you have any questions
concerning this report, please contact me or David Kimble at (770) 220-5242.
